No. _________

3Jn tbe

�upreme q[ourt of tbe Wintteb $'>tates
Deshawn Legrier,
Petitioner,
V.

United States of America,
Respondent.

CERTIFICATE OF SERVICE
I hereby certify that on November 30, 2020, as required by Supreme Court
Rule 29, I served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS, PETITION FOR A WRIT OF CERTIORARI, and APPENDIX on
respondent's counsel, by depositing an envelope containing the above documents in
the United States mail properly addressed with first-class postage prepaid. All
parties required to be served have been served and the name and address of those
served is as follows:
Hagan Scotten, Esq.
Assistant United States Attorney
United States Attorney's Office,
Southern District of New York
1 St. Andrew's Plaza
New York, New York 10007
(212) 637-2410

Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
(202) 514-2000

Gwen M

c oe eld
I

Counsel of Record

Law Office of Gwen M. Schoenfeld, L.L.C.
147 Ridgewood Avenue
Glen Ridge, N.J. 07028
la w@gwenschoenfeld.com
(917) 363-1888

Counsel for Petitioner Deshawn Legrier

